<html>
<title> - H. RES. 431 AND H. RES. 429</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]






 
                      H. RES. 431 AND H. RES. 429

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 9, 2000

                               __________

                           Serial No. 106-140

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-730 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate





                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Res. 431, expressing support for humanitarian 
  assistance to the Republic of Mozambique.......................     1
Markup of H. Res. 429, expressing the sense of the House of 
  Representatives concerning the participation of the extremist 
  FPO in the Government of Austria...............................     5


                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations concerning H. Res 431................................    18
The Honorable Marcos G. Namashulua, Ambassador Extraordinary and 
  Plenipotentiary, of the Republic of Mozambique.................    19
The Honorable Edward R. Royce, a Representative in Congress from 
  California and Chairman, Subcommittee on Africa................    20
The Honorable Earl F. Hilliard, a Representative in Congress from 
  Alabama........................................................    21
The Honorable Benjamin A. Gilman, concerning H. Res. 429.........    23
The Honorable Matt Salmon, a Representative in Congress from 
  Arizona........................................................    24

Bills and Amendments:

H. Res. 431......................................................    25
Amendment to H. Res. 431offered by Mr. Meeks, a Representative in 
  Congress from New York.........................................    29
H. Res. 429......................................................    30


                      H. RES. 431 AND H. RES. 429

                              ----------                              


                        THURSDAY, MARCH 9, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    Chairman Gilman [presiding]. We will now consider H. Res. 
431, relating to humanitarian emergency in Mozambique. The 
Chair lays the resolution before the Committee. The clerk will 
report the title of the resolution.
    Ms. Bloomer. H. Res. 431, a resolution expressing the 
support for humanitarian assistance to the Republic of 
Mozambique.
    Chairman Gilman. This resolution was not referred to 
Subcommittee.
    Without objection, the clerk will read the preamble and 
operative language of the resolution, that order for amendment.
    Ms. Bloomer. Whereas on February 9, 2000 the Southern 
African nations of Botswana, Mozambique, South Africa, Zambia 
and Zimbabwe----
    Chairman Gilman. Without objection the resolution is 
considered as having been read. It is open to amendment at any 
point.
    The bill was introduced this morning. It was not referred 
to Subcommittee. The Chair appreciates the willingness of the 
Subcommittee on Africa to waive its consideration of this 
matter.
    The Chair now recognizes the gentleman from New York, Mr. 
Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Today I urge the House International Relations Committee to 
pass H. Res. 431, a resolution which expresses the support of 
humanitarian assistance to the Republic of Mozambique.
    First, Mr. Chairman, I wish to commend the Chair of the 
Africa Subcommittee, Mr. Royce, for agreeing to waive the 
Africa Subcommittee's jurisdiction.
    I also commend Mr. Campbell and his staff for assisting 
with the drafting of this resolution.
    I wish also to commend Mr. Payne and Mr. Gejdenson, and 
last but certainly not least you, Mr. Chairman, for your 
cooperation and the cooperation of your staff.
    Mr. Chairman, for the past 2 weeks the world has watched 
with great anguish as the people of the Republic of Mozambique 
cling to whatever they can to escape raging flooding waters. 
The storms that have ravaged Mozambique are the worst the 
Southern African region has seen in more than 50 years. The 
nations of Botswana, Zimbabwe, Zambia and South Africa have 
also experienced national emergencies from the rainy season of 
flooding. However, Mozambique bore the brunt of the storm that 
is still threatened by floodwaters from neighboring countries 
which are forced to open their dams to ease the pressure on 
these structures.
    In the southern third of Mozambique, virtually all the 
primary roads, bridges, electric grid facilities, and clean 
water wells have been destroyed. Many buildings and homes that 
were built along the fertile flood plains of the Save and the 
Limpopo Rivers will need to be relocated or rebuilt.
    Mr. Chairman, I find it is ironic that a nation that has 
experienced much success over the past 8 years to reform its 
government and economy, only to suffer the economic disaster 
that these floods are causing.
    Mozambique held its second multi-party elections in 1999 
and it has privatized over 800 former government-owned 
enterprises. For the first time in a long time, or as long as 
anyone can remember, Mozambique did not even request 
international food aid. Additionally, because Mozambique's 
government's track record and economic performance has been so 
strong, the nation qualified for the World Bank and IMF highly-
indebted poor-countries program.
    With the floodwaters comes the threat of water-borne 
diseases and other public health problems. There have already 
been outbreaks of dysentery reported in many towns and villages 
without potable water.
    Another problem comes from land mines. Mozambique has 
thousands of semi-buoyant plastic land mines that may have been 
uncovered by the rising waters. These new areas must be located 
and demarcated to avoid the unnecessary damage that can happen 
to the population of Mozambique.
    Mr. Chairman, the pace of international mobilization to 
help the Mozambiquans has sped up dramatically over the past 10 
days. The government of South Africa and the Clinton 
Administration should be commended for their efforts to deploy 
military assets and emergency assistance to this country.
    In the midst of destruction and great human tragedy, who 
can forget how we witnessed the miracle of life in Mozambique, 
as we watched a mother clinging to life on a limb give life to 
a child?
    Additionally, a vast quantity of the country's crops were 
spared from the floodwaters. If the international community can 
get seeds and tools to the right areas, Mozambique's 2000 
harvest yield should be available to help with the emergency 
food shortage.
    We must prepare to do all we can to assist Mozambique get 
back on track so that her hard-fought economic and political 
reforms are not washed away with the floodwaters.
    I urge you and my colleagues to support the people of 
Mozambique.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Meeks.
    Any other Member seeking recognition?
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Let me commend Mr. Meeks for this resolution and you for 
allowing this to bypass the Subcommittee and Mr. Royce and Mr. 
Gejdenson's support also.
    I would just like to commend the gentleman from New York 
and say that I strongly support this resolution. As he's 
indicated, Mozambique has been very hard-hit with this 
devastating flood. Mozambique being one of the poorest 
countries in Africa has, as it's been mentioned, shown great 
growth over the past seven or 8 years since it has been moving 
toward market economy and privatization.
    The fact is that Mozambique has had democratic elections, 
its second elections. It is one of the few countries that took 
a guerrilla movement, the Ranamo people, and made them into a 
political party.
    I think if we go back through history we know that 
Mozambique probably would have been a supporter of the United 
States through the last 50 years. But, as you know, being a 
Portuguese colony, the NATO forces and U.S. supported the 
colonial powers who suppressed the independence movement of the 
African countries of which Mozambique and Angola and Guinea 
Bissau and others were a part. So there is a history that we 
should know of some of the problems in this country, 20 years 
of war against the Portuguese colonialists and then a civil war 
for another 15 or 20, has really taken a toll, like I said 
indirectly.
    I think that our hand is there because of the Cold War 
period, and much of the battles were fought in Africa.
    So I would certainly strongly support this resolution.
    I would also like to say that I am disappointed that there 
was a lack of response, a tardiness on the part of the 
Administration. I do recall the earthquakes in Turkey where 
there was swift assistance from all over the world, and in 
particular the U.S. teams went there to get people out. But 
here it took several weeks before we could really get ourselves 
mobilized to respond to this tragedy.
    I would certainly urge us to support this. Also I have a 
letter from the Mozambiquan ambassador to the U.S. where he is 
asking for food and medical supplies and it is in excess of $65 
million.
    I will ask that it be entered into the record. Also a 
statement from Mr. Earl Hilliard I would like to have that also 
entered into the record if there's no opposition to it.
    Chairman Gilman. Without objection.
    Mr. Payne. Thank you.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Payne.
    Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I just want to take a moment 
first to commend my friends, Mr. Meeks and Mr. Payne. I, of 
course, fully support this resolution. I think it is eminently 
appropriate that we give every conceivable assistance to the 
long suffering people of Mozambique and I urge my colleagues to 
support the resolution.
    Chairman Gilman. Thank you, Mr. Lantos.
    Mr. Rohrabacher.
    Mr. Rohrabacher. I join with my friend Mr. Lantos in 
commending Mr. Meeks and Mr. Payne, and support this 
resolution.
    These people are suffering and the bottom line is that we 
represent a country that's supposed to have the highest ideals 
and lead the way when people are suffering like this, and I am 
very pleased with the leadership you've provided and am happy 
to support you.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman. I want to thank you and 
Mr. Meeks for bringing up this resolution and would also like 
to commend Mr. Meeks with regard to the details of the 
resolution.
    The fact that we were late in stepping up to the plate, I 
think, should prompt us to move very quickly to look at the 
ideas and suggestions from the Ambassador and other relief 
agencies so that we can really redouble our efforts. I am 
pleased that the resolution also calls for us to take the 
international lead because we should. We've neglected Africa 
for so long, and here we have an opportunity to be 
international leaders in responding to such a devastating 
disaster.
    So thank you very much for giving us the opportunity to 
vote on this and to work with you on it.
    Chairman Gilman. Thank you, Ms. Lee.
    Are any other Members seeking recognition?
    I am pleased to announce my support for this resolution.
    I want to thank the gentleman from New York, Mr. Meeks, for 
his leadership in this measure, and also Chairman Royce and 
Ranking Member Mr. Payne of the African Subcommittee for 
introducing it.
    It is important for our Congress to recognize the 
devastating floods in Mozambique and the extraordinary trials 
the people of that nation are undergoing.
    When we saw television shots of them clinging to rooftops 
in order to escape the rising flood tide, and then to have a 
limited number of helicopters there to rescue the people, I 
think focused our attention on the need to have international 
assistance.
    I am pleased that we finally did react, even belatedly, and 
got some choppers in there and provided humanitarian supplies. 
Our military is in and out of there now to help the people of 
Mozambique. South Africa, the United Kingdom, France, and 
Denmark also responded even though it was a bit late, but it 
helped considerably and we are going to try to arouse the 
interest of other nations to provide assistance.
    I am particularly impressed with and thankful for the rapid 
and effective assistance from the neighboring country of the 
government of South Africa.
    I hope that our foreign disaster specialists at USAID are 
going to explore ways to further support regional disaster 
response capabilities in Africa in the days ahead.
    Is there any other Member seeking recognition?
    I would also like to note that I've just been handed a note 
that senior Administration officials will brief interested 
Members on the situation in Mozambique this afternoon at 3 p.m. 
in room 2255. That's this afternoon at 3 p.m. in room 2255.
    Is there anyone else seeking recognition? If not, the 
gentleman from California, Mr. Rohrabacher, is recognized to 
make a motion.
    Mr. Rohrabacher. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. The question is now on the motion by the 
gentleman from California, Mr. Rohrabacher. All those in favor 
of the motion, say aye.
    [Chorus of ayes.]
    Chairman Gilman. Those opposed, say no.
    [No response.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Further proceedings on this measure will be postponed.
    We will now proceed to H. Con. Res 315--I am sorry H. Res. 
429.
    Mr. Meeks. Mr. Chairman?
    Chairman Gilman. Yes, Mr. Meeks.
    Mr. Meeks. Before we go on I have some technical amendments 
that I had at the desk.
    Chairman Gilman. I am sorry, we will vitiate the prior 
action of the Committee. Mr. Meeks is recognized without 
objection to offer a technical amendment.
    Mr. Meeks. I believe the technical amendments have already 
been distributed to the Members and I ask unanimous consent of 
these amendments be considered en bloc.
    Chairman Gilman. Without objection, the amendments are 
being considered en bloc.
    All in favor of the technical amendments signify in the 
usual manner.
    [Chorus of ayes.]
    Chairman Gilman. Opposed?
    [No response.]
    Chairman Gilman. The technical amendments are agreed upon.
    Mr. Meeks. Thank you Mr. Chairman.
    Chairman Gilman. We will now return to the motion by Mr. 
Rohrabacher to seek consideration of the measure on the 
suspension calendar.
    All in favor signify in the usual manner.
    [Chorus of ayes.]
    Chairman Gilman. Opposed?
    [No response.]
    Chairman Gilman. So be it. Mr. Rohrabacher's motion is 
agreed to.
    We will now consider H. Res. 429 relating to the new 
Austrian government. The Chair lays the resolution before the 
Committee. The Clerk will report the title of the resolution.
    Ms. Bloomer. H. Res. 429, a resolution expressing the sense 
of the House of Representatives concerning the participation of 
the extremist FPO and the government of Austria.
    Chairman Gilman. Without objection the preamble and 
operative language of the resolution will be read in that order 
for amendment. The Clerk will read.
    Ms. Bloomer. Whereas the extremist, racist and xenophobic 
FPO has entered into a coalition agreement and is participating 
in the new government of Austria. Whereas the long time----
    Chairman Gilman. The resolution is considered as read, 
without objection.
    The resolution is in the original jurisdiction of the Full 
Committee and I now recognize the gentleman from California, 
the original sponsor of the measure, Mr. Lantos, to introduce 
the resolution to the Committee.
    Mr. Lantos. Thank you very much, Mr. Chairman.
    Let me first express my appreciation to you for not only 
being an original cosponsor of my resolution but of having 
significantly improved the nature of the resolution.
    I want to thank also my friend, Mr. Crowley, who has played 
such a pivotal role in bringing this resolution before our 
Committee and I hope in a day or so before the House.
    We are dealing with one of the most remarkable political 
developments of Europe since the end of the Second World War.
    The European Union, a group of democratic, friendly, free 
and open societies has seen fit to express in the strongest 
possible terms its disapproval of a neo-Nazi, racist, 
xenophobic political party being part of the new coalition 
government of Austria.
    I thought long and hard, Mr. Chairman, of how I could 
relate the leader of this party to the American political 
scene, and it is not easy. But the closest I can come to is 
David Duke. Because Joerg Haider is a very successful David 
Duke. While David Duke is viewed as a fringe character on the 
American political scene with his sickeningly racist and 
xenophobic and extremist views, Haider was able to obtain 27 
percent of the vote in free and open and democratic elections 
in Austria; and the more recent public opinion polls show that 
were the elections to be held today he would be likely to 
receive a higher percentage of the vote.
    Haider is typical of the new generation of political 
leadership of the far-right. When David Duke talks about--no 
longer, he no longer talks about the white citizens council--he 
talks about European Americans, the European Americans who have 
been so put upon by recent trends in this country which have 
moved our country toward some degree of recognition of racial 
justice.
    Haider is a charismatic, articulate, sophisticated European 
political leader. His party is included in the Governing 
Coalition, and our resolution merely expresses our concern that 
Austria now has a government in which one of the two major 
political parties is an extremist, racist, neo-fascist group.
    Now Haider, shortly after this government was founded, 
removed himself from the political leadership of this party, 
which is one of his most recent clever moves because he will 
want to disassociate himself from the very harsh economic 
measures the new Austrian government will have to institute.
    As a matter of fact, Haider's own political leadership 
indicates that he plans to run for Chancellor of Austria as 
soon as those elections will be open, and they may be open very 
soon because this coalition may collapse.
    I cannot emphasize the importance of the Congress of the 
United States going on record expressing its concerns with 
respect to this development. There is an enormous difference 
between Germany and Austria in facing their Nazi past. The 
Germans faced up to their Nazi past forthrightly, courageously, 
and have undertaken a program in Germany's public schools of 
teaching the history of the Hitler period and recognizing the 
tremendous degree of responsibility that the new democratic 
German governments face in living down that past.
    None of that happened in Austria. Austria was extremely 
successful in portraying herself as Hitler's first victim when 
in fact Austria was Hitler's first ally.
    I remember as a boy in Budapest seeing newsreels of 
Hitler's troops marching into Austria triumphantly and being 
greeted by hundreds of thousands of joyful Austrians throwing 
countless bouquets of flowers at the feet of the Germany Nazi 
troops, who came in as friends and allies and were greeted with 
delight.
    It will be necessary for Austria in the coming years to 
come face-to-face with its Nazi past. My resolution commends 
the 14 nations of the European Union and some nations that are 
not part of the European Union, like Norway and Canada, for 
recognizing the horrendous danger this philosophy of neo-
Nazism, xenophobism, racism represents for Europe.
    David Duke is not successful in this country because we 
have a history of 220 years of trying to build slowly a 
democratic society. As a matter of fact, one way of looking at 
American history is to say that we have been engaged for 220 
years in closing the hypocrisy gap. When we initially declared 
all men are created equal, some of the people who said that had 
slaves and it took us a civil war to get beyond that.
    When we said all men are created equal, we never even 
looked at women. They were not part of the scene. It took us 
generations to recognize that not only all men are created 
equal, but all women are created equal, and we are still a long 
way from making a reality of the phenomenally impressive and 
deep and moving statements of our founding documents.
    Now Austria does not share a democratic past, and with this 
painful election where 27 percent of the Austrian voters voted 
for the party of a man who declares Hitler's labor policies to 
be admirable, who expresses his admiration for the Waffen SS, 
one of the most sickening military units of Europe in the 2nd 
World War, it is important for the Congress to express its 
views.
    Before closing, Mr. Chairman, I feel obliged to mention 
that one of our colleagues, a strong supporter of the 
resolution, Mr. Salmon, has expressed the thought that perhaps 
serious support against the Haider regime may be made part of 
this resolution.
    I obviously share his views that it is indicative of the 
nature of the Haider regime that the only government that 
expressed support for it is the dictatorial government of Assad 
in Syria.
    Let me say my resolution enjoys the support of some of the 
leading Republican Members of our body including yourself, Mr. 
Chairman, and I ask my colleagues to support the resolution 
unanimously, and I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Lantos. I commend the 
gentleman from California and express my appreciation to him 
for inviting me to join with him in sponsoring this important 
resolution.
    H.R. 429 places the House on record regarding our concerns 
over the participation of the extremist freedom party, the FPO, 
in the government of Austria that was recently formed. The 
former leader and founder of the FPO, Joerg Haider, has 
propelled the FPO into the mainstream of Austrian politics by 
appealing to some of the insecurity of Austria's people.
    He also capitalized on a large measure of dissatisfaction 
with the political status quo that was represented by Austria's 
traditional political establishment among the Austrian 
electorate.
    It is important, therefore, that we express our strong 
condemnation to many of the statements that Haider has 
expressed, his demagogic attempts to stir up resentment of 
Austria's largest immigrant community, and his apparent 
sympathies for the aspects of Austria's tragic Nazi past.
    This measure I think is balanced. It is aimed at the 
government of Austria and not at the people of Austria, with 
many of whom we've enjoyed a close and enduring friendship.
    While we are expressing our concern, we are withholding any 
final judgment with regard to the direction the new government 
will choose to lead Austria. It calls upon our own government 
to make clear our concerns and to carefully monitor Austrian 
policies so that if further action on our part becomes 
necessary we will be able to take them without delay.
    Accordingly I ask the support of our colleagues for H. Res. 
429 so that there is no misunderstanding of the depth of our 
concern expressed to Austrian officials.
    Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman. Thank you for the 
opportunity to speak on Mr. Lantos' resolution. First let me 
thank my colleague, Mr. Lantos, for his words before about our 
involvement and to let you know and express to you how 
important and how delighted we were to work with you on this 
resolution.
    As someone who has been a victim, himself and his family of 
the atrocities of the Nazi regime and what it meant not only in 
Germany but throughout Europe, and to others like you who live 
today in many respects to see that governments like that do not 
develop again, I know how important this resolution is to you 
and to so many other Members of this House.
    Mr. Chairman, everyone on the Committee has heard the 
comments made by Joerg Haider and the leaders of the Freedom 
Party of Austria. Comments praising Hitler's policies, 
statements praising the Waffen SS, assertions consistently 
blaming problems in Austria including low employment, high 
taxes, and the spread of disease on immigrant populations. His 
views are clear, his intentions are known, and his attempts to 
apologize each time he makes an offensive statement have grown 
as tiresome to me as his hateful statements.
    Although Mr. Haider has resigned his position, his party, 
the Freedom Party, remains in a coalition government, albeit 
frail, in Austria, with the People's Party. This must not be 
accepted.
    That is why I've joined with Congressman Lantos, Chairman 
Gilman, Ranking Member Gejdenson, and a number of my colleagues 
in introducing House Resolution 429. It is not only appropriate 
but also necessary that the U.S. Congress put itself on record 
as disapproving of this government.
    I thank the Chairman and I urge all my colleagues to 
support this important resolution.
    Chairman Gilman. Thank you, Mr. Crowley.
    Any other Members seeking recognition?
    Mr. Rohrabacher.
    Mr. Rohrabacher. Let me suggest that we should move forward 
in Congress with a little more caution than I hear today.
    First of all, Austria has a democratic tradition and we are 
talking about a democratic election. No one is suggesting that 
the election that Mr. Haider and his party received a certain 
significant part of the vote was anything more or less than a 
democratic election.
    We do not like some of the things Mr. Haider has said, we 
do not like some of the policies of that party. Yet we have 
this incredible response to him winning an election or getting 
that part of the electorate in Austria.
    There are dictatorships around the world that we are not 
mentioning. You've all heard me talk about communist China over 
and over again, yet they're our strategic partners. I do not 
hear the outrage that there's genocide going on in Tibet, and 
Mr. Lantos obviously is a very active person in the human 
rights community.
    And yes, I have joined with Mr. Lantos time and time again 
when there was evidence of anti-semitism that I believed 
warranted not only our concern but our active opposition to in 
Russia, when Mr. Lantos presented a resolution about some of 
the anti-semitic statements made by some of the new leaders in 
Russia. Not only did I join him, but I asked if we could 
strengthen that resolution by putting meat into it rather than 
simply having a condemnation.
    Mr. Lantos also brought to our attention what was going on 
in Hungary, in which I supported him.
    These were clear examples of anti-semitism.
    I am not sure that what we have here today is a clear 
example of anti-semitism. We have Mr. Haider who has made some, 
I would again say despicable statements about, well, the Nazis 
at least made the trains run on time type of thing. And, by the 
way, let me just say as far as I am concerned the SS were the 
worst type of perverts and sadists in the history of humankind. 
I have got no problem condemning them. Let us remember those 
people in Austria; however, Mr. Lantos' statement was correct. 
Those people were Hitler's allies and they have yet to come to 
grips with their past. They have yet to do what the Germans 
did, which is fess up, hey, our people were in the SS.
    My suggestion is I think Mr. Haider made that statement, 
and my guess is he has properly apologized for that statement. 
It is obvious whoever hears it should jump on anybody's case 
for saying something like that, and I certainly do not hold 
back in condemnation of that statement. But again, I think he 
apologized.
    There are lots of people, let me say, that I have heard 
over the years, say good things about Mao Tse Tung on the 
liberal side of the spectrum. I cannot tell you how many times 
I've been at meetings and been in television shows and been in 
the public debate and heard liberal Democrats saying, ``Well at 
least Mao Tse Tung did this,'' or ``At least Stalin did that,'' 
or ``At least Fidel Castro's provided some kind of healthcare 
for his people,'' totally ignoring the incredible human rights 
abuses that have gone on under those regimes. I have to equate 
those two a little bit in my mind in terms of anybody who said 
something good about Mao or Stalin or Fidel Castro--do I 
automatically call them a communist? No, I do not.
    Sometimes I call them aside and say, you know, you really 
should take a look at what the Sandinistas did or that Castro 
did. These are dedicated people, the communists and the Nazis, 
to things that we do not believe in.
    But again, you have to use caution because people are, 
again, human beings and Austria has to come to grips with its 
Nazi past. It should not even be in their minds that the SS was 
anything but, as I say, perverts and sadists of the worst kind.
    But let me say this again. I do not believe that neo-Nazism 
is what we are talking about here. If it were, I would be the 
first one in supporting this resolution. I do not believe 
that's what we are talking about here.
    There have been a couple of statements by Mr. Haider that 
sound bad, and he apologized for them, but I do not believe 
that he is a neo-Nazi and the people over there in Austria do 
not believe he's a neo-Nazi either. They would not have voted 
for him if he were neo-Nazi.
    But I think that what he is concerned about, what his 
party's been talking about, is the threat especially of illegal 
immigration into their country. I think that's the truth of the 
matter.
    He got his votes because his party was the one party that 
stepped up to talk about illegal immigration. I have been 
called a racist skinhead in my district by liberal Democrats 
because it is my position that we should not provide benefits 
to illegal immigrants. I am not a racist skinhead. I am not a 
neo-Nazi. I am not any of those things. I have love in my heart 
for all our fellow human beings, and I think that racism, as I 
say when I see it, demands that we all step forward and condemn 
it.
    But I've been called those names, so why am I surprised now 
to hear those same refrains about Austria's 8 million people. 
In the blink of an eye you could have a total change in their 
society. People who are totally different culturally and 
different nationally, racially and every other way, coming into 
that country. Now they're different people who will control 
Austria, unless they control their borders, and that's what 
those people are concerned about. That is, I believe, a 
legitimate concern.
    Now tell me if I am being wrong or a racist for saying 
that. I think we have a concern in this country that we had at 
least 10 million illegal immigrants pouring into this country, 
and we have a population of 225 to 250 million people.
    So I think we've got to be a little cautious here in saying 
that someone, simply because they're involved in an effort to 
try to prevent illegal immigration into a country of 8 million 
people, is automatically a racist or automatically a neo-Nazi. 
I think that that concern is what's foremost in the mind of 
those voters.
    Let me just say, I've met Haider twice. The guy came in, he 
was in the Austrian embassy, he was touring town, and he was 
ushered into my office to say hello. I found him to be a 
personable human being. Then again, as Mr. Lantos so amply 
demonstrated by using the comparison to David Duke, someone who 
didn't know David Duke might, just with a 15 minute meeting, 
might think he's a good guy, too. But the fact is that David 
Duke is a racist and a phony and I've spent considerable 
personal capital in the Republican party trying to counter 
David Duke and any in-roads he would have into our party. So 
maybe Mr. Lantos is right about that.
    Mr. Lantos have you met Haider at all and talked to him?
    Mr. Lantos. If my good friend will yield?
    Mr. Rohrabacher. I will be happy to yield.
    Mr. Lantos. Let me first pay tribute to my friend from 
California, who has stood with me on all of the issues from 
Tibet to the Soviet Union. We have been colleagues and comrades 
in arms and I appreciated that.
    I think the David Duke analogy is not a bad analogy. If 
David Duke is ushered into somebody's office and is on his good 
behavior and you know nothing about him, he's a well dressed, 
articulate, intelligent and very pleasant person.
    If you know what David Duke stands for, then you become 
revolted. Even though David Duke may apologize for his 
statements subsequently, then he says it again in a different 
form, and yet again apologizes, which of course has been 
Haider's pattern.
    What I really would like to respond to in my colleague's 
observations is the early remark that these were free and open 
and democratic elections. Adolf Hitler got a higher percentage 
of the vote in free and open and democratic elections in 
Germany.
    It is not in our power to undo the results of free and open 
and democratic elections. I respect the right of the Austrian 
people to elect anybody they choose to any office. But I 
reserve the right through Congress to express our views about 
the kinds of people they have elected and the philosophies 
those people represent.
    Haider is a racist. His statements about people with a 
different pigmentation from his are unprintable. He hates, he 
hates blacks.
    I am not concerned about Mr. Haider's anti-semitism. What I 
am concerned about is his profound, deeply felt hatred along 
all racial and religious lines. What I am concerned about is 
that in a continent such as Europe, particularly Central and 
Eastern Europe, where the veneer of civilization is paper thin 
as we have seen it in the former Yugoslavia, ethnic and racial 
and religious hatreds can be whipped up with tremendous ease. 
This is what Haider has done. This is what members of his 
political party have done. This is why Austrians who hardly 
ever go out in the streets, tens of thousands of them, have 
been demonstrating against this racist political party being 
included in the new coalition government of Austria.
    Now David Duke is sort of a bizarre and passing phenomenon 
in this country. We do not expect David Duke to get 20 percent 
of the vote in a general election in the United States, but 
unless I am mistaken, David Duke ran for statewide office in 
Louisiana and got a very respectable number of votes. I forget 
now, maybe some of my colleagues can help me, how high that 
vote was, but it was a frightening vote because it was a vote 
for racism.
    For the Congress of the United States not to express itself 
on racism in its ugliest form when it manifests itself in 
Europe while expressing itself on all of these issues in Tibet, 
in Cuba, and everywhere else where we have totalitarian 
governments or political parties that would like to get into 
government, would be a very serious mistake.
    I know this resolution will pass overwhelmingly. I would 
only hope since my good friend has stood in the forefront of 
fighting racism and religious intolerance and so many other 
issues, he would see his way clear to join us in making this 
vote unanimous.
    I want to thank my friend for yielding.
    Mr. Rohrabacher. Reclaiming my time, let me just say I 
thank the Chairman for indulging us in this very good 
discussion. I would like to see the quotes from Mr. Haider that 
indicate the racism that you're talking about. I would look at 
them. If someone could give me a white paper, a couple of pages 
of things that indicate that he is indeed a racist and has said 
racist type things, and if he has said too many racist things 
who cares if he apologizes or not. It is reflecting his soul, 
and I'd like to see that. That would have a lot to do with my 
reaction.
    Let me just say about David Duke, I spent a considerable 
portion of my own campaign funds to donate to people who were 
running against David Duke, as I know that the likes of David 
Duke pollutes the whole debate in our country because he tries 
to pretend he's a conservative, and he's not. I do not want him 
around, and I want him defeated, because it does tend to create 
a residue that's an evil residue.
    Mr. Lantos. But if my friend will yield for another moment.
    Mr. Rohrabacher. Yes.
    Mr. Lantos. I would just say that I would not think of two 
more similar people in outlook, attitude, philosophy on the 
political scene globally than David Duke and Joerg Haider. They 
are both highly presentable, highly attractive, highly 
articulate, peddling philosophies of hate; and if my friend is 
as strongly opposed to David Duke as I know he is, I would 
think he would want to associate himself with our resolution.
    Mr. Rohrabacher. Let me take a look at those quotes 
because, again, from a distance what it appears to me is that 
Mr. Haider has been speaking not as a racist, but as someone 
who is speaking up against illegal immigration into his 
country. With a country of eight million people, again, I think 
that's a legitimate issue for people to think about in that 
country.
    Now whether or not Austria has come to grips with its Nazi 
past, I think you're correct in that. I think they should, and 
they need to. But that does not mean that the Austrian people, 
unlike many other countries of the world, in fact most other 
countries in the world, do not have a legitimate concern in 
preventing massive illegal immigration into their country.
    I do not know any country that doesn't control its borders 
in that regard. People have high standards. Israel has very 
high standards as to who they permit to immigrate into their 
society. Other countries--we have a bad illegal immigration 
problem, but we officially have high standards as to who 
immigrates into our country.
    So I'd like to see the racist statements you're talking 
about that Haider made and I may well join you on the floor in 
supporting your resolution then.
    Mr. Crowley. Would the gentleman yield for----
    Mr. Rohrabacher. I will yield back the balance of my time 
to whoever wants the floor so they can have it.
    Chairman Gilman. Mr. Sherman is next, and then I will 
recognize Mr. Crowley.
    Mr. Sherman.
    Mr. Sherman. I think Mr. Haider's comments go well beyond 
immigration policy. He opposes both legal and illegal 
immigration. But beyond that, his comments are showing a 
remarkable level of comfort with the Nazi institutions of 
Austria's past--reason enough for us to be concerned and to 
express the concerns in a resolution.
    My colleague from California compares Haider or a Haider-
influenced government in Vienna with China and Beijing, and I 
would simply say that in looking at developments around the 
world we grade on the curve and we look at the history of the 
country. China has never had a democratic government and if 
they were to get one as democratic as the government in Vienna, 
even today, that might be a reason for celebration.
    But to see the government of Austria, which has been 
democratic and has not been marred by public statements of 
racism or public support for Nazi institutions of the past, 
taking a step backward is something that we should comment on.
    I think in other resolutions that we have passed, there are 
a variety of times when we have passed resolutions praising 
governments for democratic elections where there were a few 
problems with those elections, but we compared that country to 
its own past, not to Denmark or Canada. I think if you look at 
this Austrian government, there is reason for us to express our 
concern that this is a big step backward.
    Chairman Gilman. Thank you, Mr. Sherman.
    Mr. Crowley, without objection----
    Mr. Crowley. Just a point. Thank you for yielding the time.
    Regarding Mr. Rohrabacher's statement earlier. The point I 
think I'd like to make is that a majority of the people of 
Austria did not vote for the Freedom Party. In fact less than 
30 percent, 27 percent, that means that over 70 percent voted 
for one of the other parties. But they were unable to make a 
government out of those parties; therefore the People's party, 
it is my understanding, created a coalition government. Therein 
lies the difference between maybe the threat of a David Duke in 
this country and what has happened with Mr. Haider in the 
parliamentary system in which Austria's tradition of democracy 
has developed.
    I think that's a statement that has to be made. In the 
tradition of the European style of democracy--a parliamentary 
system--it is possible that this can take place not only in 
Austria but within other European countries as well; so I think 
it is important for us to make a strong statement, as I think 
it is important for the EU to speak out or any other democracy 
to do the same thing when something like this has occurred.
    I do not have a fear that Mr. Duke will come to power in 
Louisiana or any other national office very soon, but I do have 
fear of a tradition in Europe of anti-semitism, of racial 
hatred growing again. That's what my concern is and that's why 
I again applaud Mr. Lantos.
    Chairman Gilman. Thank you, Mr. Crowley. If there are no 
other Members----
    Mr. Payne. Mr. Chairman?
    Chairman Gilman. Mr. Payne, I am sorry.
    Mr. Payne. Yes, I would certainly like to associate myself 
with the remarks of Mr. Lantos and others who have expressed 
concern about the statements that have been made. In many 
instances, there are all kinds of code words. You can be anti-
immigration, especially if the immigrants are of a different 
religion or race. We even see some of that in Germany today. 
Turks who have lived there for generations have had, as you 
remember, some homes burned, and people were killed because 
they were from Turkey.
    So to use sort-of a code word, if you're against this 
illegal immigration, many times that sends a signal. As you 
know, Adolf Hitler came to power because Germany was in 
disarray. Unemployment was high. He used the demagoging of a 
group of people to say that they were their problems. This is 
the same kind of thing being used by this gentleman.
    I think that anyone who has positive things to say about 
Adolf Hitler they are talking about a person who when the 
Olympics were held in Berlin, refused Jesse Owens, one of the 
greatest athletes the world has ever known. Adolf Hitler 
refused to shake his hand when his hand was extended, and 
refused to give him the medal because he was black, although he 
broke all kinds of existing records.
    So anyone who can see Hitler as anything positive, I think 
they send signals. Code words are used even in our country 
here.
    So I wholeheartedly support the resolution, Mr. Lantos. I 
think that we have to be concerned about neo-Nazism. I do not 
see anywhere where the people of Austria have been condemned. I 
think it was very carefully crafted so that we are not saying 
what people should do internally.
    So I certainly add my support, Mr. Lantos, and will 
certainly let it be known. Thank you.
    Chairman Gilman. Thank you, Mr. Payne.
    If there are no other Members seeking recognition, the 
gentleman from California, Mr. Rohrabacher is recognized to 
offer a motion.
    Mr. Rohrabacher. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending resolution on 
the suspension calendar.
    Chairman Gilman. Thank you, Mr. Rohrabacher. The question 
is now a motion. The gentleman from California, those in favor 
of the motion signify by saying aye.
    [Chorus of ayes.]
    Chairman Gilman. Those opposed, say no.
    [No response.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Further proceedings on this matter are postponed.
    Mr. Rohrabacher. Mr. Chairman----
    Chairman Gilman. The record will remain open for 1 week to 
receive additional statements from Members, and in particular 
the statement from Mr. Salmon will be received in the record.
    Mr. Rohrabacher. Mr. Chairman, I have remarks by Mr. Royce 
I'd like to submit for----
    Chairman Gilman. Without objection, the remarks will be 
entered into the record.
    If there are no further requests, the Committee stands 
adjourned.
    [Whereupon, at 1:50 p.m. the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             March 9, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T6730.001
    
    [GRAPHIC] [TIFF OMITTED] T6730.002
    
    [GRAPHIC] [TIFF OMITTED] T6730.003
    
    [GRAPHIC] [TIFF OMITTED] T6730.004
    
    [GRAPHIC] [TIFF OMITTED] T6730.005
    
    [GRAPHIC] [TIFF OMITTED] T6730.006
    
    [GRAPHIC] [TIFF OMITTED] T6730.007
    
    [GRAPHIC] [TIFF OMITTED] T6730.008
    
    [GRAPHIC] [TIFF OMITTED] T6730.009
    
    [GRAPHIC] [TIFF OMITTED] T6730.010
    
    [GRAPHIC] [TIFF OMITTED] T6730.011
    
    [GRAPHIC] [TIFF OMITTED] T6730.012
    
    [GRAPHIC] [TIFF OMITTED] T6730.013
    
    [GRAPHIC] [TIFF OMITTED] T6730.014
    
    [GRAPHIC] [TIFF OMITTED] T6730.015
    
    [GRAPHIC] [TIFF OMITTED] T6730.016
    

</pre></body></html>
